CERTIFICATE OF COMPLIANCE
No. 21-146
CHRISTINE CLIFFORD, (AS ADMINISTRATOR OF
THE ESTATE OF JOHN CLIFFORD), et al., Petitioner
v.
ROBERT FEDERMAN, et al., Respondents
As required by Supreme Court Rule 33.1(h), I
certify the petition for writ of certiorari contains 2,956_
words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 5, 2021

Bob Kasolas, Esq.

BE:12099466.1/GOT053-273976

